No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
TRYSTAN KEUN NAPPER,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
October 8, 2020

No. 18-10442

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Trystan Keun Napper,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 1:04-CR-41-31
Before Owen, Chief Judge, and Davis and Southwick, Circuit Judges.
W. Eugene Davis, Circuit Judge:
Trystan Keun Napper appeals his 37-month sentence imposed
following the revocation of his second term of supervised release. Napper
argues, for the first time on appeal, that his sentence violates the terms of his
plea agreement, that the sentence is plainly unreasonable on substantive and
procedural grounds, and that the district court failed to hold his revocation
hearing within a reasonable time. Because we determine that the district
court did not plainly err, we AFFIRM.

No. 18-10442

I. BACKGROUND
Napper pled guilty, pursuant to a plea agreement, to possessing a
firearm in furtherance of a drug-trafficking crime and aiding and abetting, in
violation of 18 U.S.C. §§ 2 and 924(c). The plea agreement contained
numerous provisions setting forth, inter alia, Napper’s rights as a defendant,
his waiver of those rights by pleading guilty, his agreement to cooperate with
the Government, and the Government’s agreement to dismiss the charges of
the indictment to which Napper did not plead guilty. Pertinent to the issues
on appeal, Section 3 of the plea agreement provided the following:
3.
Sentence: The minimum and maximum
penalties the Court can impose include:
a.
imprisonment for a period not less than 5 years
nor more than life;
b.
a fine not to exceed $250,000.00;
c.
a term of supervised release of not more than 5
years, which must follow any term of
imprisonment. If Napper violates the conditions
of supervised release, he could be imprisoned for
the entire term of supervised release;
....
e.
a mandatory special assessment of $100.00[.]
The agreement stated that “both parties agree, pursuant to Fed. R. Crim. P.
11(c)(1)(C), that a specific sentence of 60 months is the appropriate sentence
in this case.” The agreement further provided: “Napper understands he will
only be able to withdraw his plea of guilty if the Court does not follow the
specific sentencing recommendation as set out above.”
Consistent with the plea agreement, the district court sentenced
Napper to 60 months in prison. The court also ordered the maximum term
of supervised release (five years/60 months) and ordered Napper to pay a
$100 special assessment.

2

No. 18-10442

After Napper served his 60-month prison term, and approximately
one year into Napper’s supervised release, the Government filed a motion to
revoke, alleging that Napper had violated various mandatory and standard
conditions of his supervision. Specifically, the Government asserted that
Napper had absconded from supervision, failed to participate in drug testing,
and possessed cocaine for distribution. After conducting a revocation
hearing, the district court granted the Government’s motion and revoked
Napper’s supervised release. The district court imposed a revocation
sentence of 37 months in prison, followed by 23 months of supervised release.
After Napper served his 37-month revocation sentence, he violated
the conditions of his newly-imposed term of supervised release by
committing aggravated assault with a deadly weapon. Napper was arrested in
December 2012, pled guilty to the crime in January 2014, and was sentenced
to three years in state custody. Napper remained in state custody from
December 2012 until his release in September 2016. In August 2017, Napper
was charged in federal court with conspiracy to distribute and possession
with intent to distribute 500 grams or more of methamphetamine. At that
point, the Government also moved to revoke Napper’s second term of
supervised release based on his state aggravated assault conviction and his
federal drug crime. In October 2017, Napper pled guilty to the federal drug
offense pursuant to a plea agreement. The Government agreed that 240
months in prison was an appropriate sentence.
As Napper requested, the district court set Napper’s sentencing for
the federal drug offense and his revocation hearing on the same day.
Consistent with the plea agreement, the district court sentenced Napper to
240 months for the drug offense and ordered that sentence to run
consecutively to any sentence imposed in his state parole revocation
proceeding and in his supervised release revocation hearing. During his
supervised release revocation hearing, which the district court conducted

3

No. 18-10442

immediately following Napper’s sentencing for the drug offense, Napper
admitted to the violations of supervised release alleged by the Government.
The court therefore revoked Napper’s second term of supervised release and
imposed a revocation sentence of 37 months, but no further supervised
release. Napper timely appealed.
II. DISCUSSION
Napper argues that the 37-month sentence imposed by the district
court after revoking his second term of supervised release violates the terms
of his plea agreement. He further contends that the sentence was plainly
unreasonable on both procedural and substantive grounds. Finally, Napper
asserts that his second revocation hearing was not held within a “reasonable
time,” in violation of Federal Rule of Criminal Procedure 32.1 and the Due
Process Clause.
A. Standard of Review
Napper acknowledges that because he failed to raise these arguments
in the district court, our review is for plain error only under Federal Rule of
Criminal Procedure 52(b).1 Under the plain-error standard, Napper must
show that (1) there was an error or defect in the district court proceeding;
(2) the error was clear or obvious; and (3) the error affected his substantial
rights.2 If Napper is able to satisfy these requirements, then we have the
discretion to remedy the error, but should do so “only if the error seriously

1

Rule 52(b) provides: “A plain error that affects substantial rights may be
considered even though it was not brought to the court’s attention.”
2

Puckett v. United States, 556 U.S. 129, 135 (2009) (specifically holding that plainerror standard applies to claims that a plea agreement has been breached when such claim
is raised for the first time on appeal).

4

No. 18-10442

affects the fairness, integrity or public reputation of judicial proceedings.”3
The Supreme Court has noted that satisfying the plain-error standard “is
difficult, as it should be.”4
B. Analysis
1. Plea Agreement
Napper relies on Section 3 of his plea agreement in asserting that his
37-month sentence imposed after revocation of his second term of supervised
release violates the terms of the agreement. Section 3 (outlined above) listed
“[t]he minimum and maximum penalties the [district] [c]ourt [could]
impose” for Napper’s guilty plea to possessing a firearm in furtherance of a
drug-trafficking crime and aiding and abetting. Regarding supervised release,
Section 3 provided that the district court could impose “a term of supervised
release of not more than 5 years” and that “[i]f Napper violate[d] the
conditions of supervised release, he could be imprisoned for the entire term
of supervised release[.]”
Napper argues that based on this language, he reasonably understood
that he could not “receive revocation sentences exceeding 60 months
imprisonment,” the length of his first term of supervised release. He
contends that his 37-month sentence imposed after the revocation of his
second term of supervised release is a breach of his plea agreement because
when added to his first 37-month revocation sentence, the total of his
revocation sentences equals 74 months—14 months more than his initial 60month term of supervised release.

3

Id. (internal quotation marks and citation omitted).

4

Id. (internal quotation marks and citation omitted).

5

No. 18-10442

Napper further asserts that he also reasonably believed, based on the
language of Section 3, that he could not “receive a revocation term of
imprisonment exceeding the term of release just revoked.” He therefore
asserts that, even if viewed on its own, his second revocation sentence of 37
months breaches the plea agreement because it is 14 months greater than the
term of supervised release (23 months) just revoked. Napper does not seek
to withdraw his plea agreement; he seeks to enforce it. He contends that
specific performance of the plea agreement requires this court to remand this
matter to the district court for resentencing and imposition of a revocation
sentence of 23 months or less.
In determining whether a plea agreement has been breached, “this
court applies general principles of contract law and considers whether the
government’s conduct is consistent with the defendant’s reasonable
understanding of the agreement.”5 “The plain language of the agreement,
taken with the intent of the parties at the time the agreement was executed,
controls.”6
Contrary to Napper’s contentions, the plea agreement did not include
any agreement regarding the prison term that could be imposed upon
revocation of a second term of supervised release. The plea agreement
concerned only one term of supervised release—the term imposed by the
district court immediately following Napper’s guilty plea. Specifically, in the
section of the agreement preceding Section 3, the agreement provided that
Napper was pleading guilty to Count 15 of the indictment, charging a
violation of §§ 2 and 924(c), aiding and abetting possession of a firearm in

5

United States v. Loza-Garcia, 670 F.3d 639, 642 (5th Cir. 2012) (internal quotation
marks and citation omitted).
6

United States v. Williams, 949 F.3d 237, 238 (5th Cir. 2020) (citation omitted).

6

No. 18-10442

furtherance of a drug-trafficking crime. Section 3 then listed the minimum
and maximum penalties the district court could impose for Napper’s plea of
guilty to that crime. The list of penalties included “a term of supervised
release of not more than 5 years” and explained that “[i]f Napper violate[d]
the conditions of supervised release, he could be imprisoned for the entire
term of supervised release[.]”
The plain language of the plea agreement makes clear that the words,
“a term of supervised release,” in Section 3 means the initial term of
supervised release imposed by the district court for Napper’s plea of guilty
to the drug-trafficking crime.7 That term of supervised release could not be
more than five years, and if Napper violated the conditions of that
supervision, he could be imprisoned for the entire term.8 The district court
imposed the maximum term of supervised release, five years, and upon later
determining that Napper violated the conditions of that supervision, the
district court imprisoned Napper for less than five years—37 months. The
plea agreement was not breached.

7

In our decision in United States v. Hampton, we interpreted identical language (“a
term of supervised release”) in the revocation statute, 18 U.S.C. § 3583(e)(3), to mean
“one particular” term of supervised release. See 633 F.3d 334, 338 (5th Cir. 2011).
8

Napper was subject to whatever penalty the law provided as to revocation of a
second term of supervised release, and he does not argue that his sentence violated the
relevant revocation statute, § 3583. Under our precedent interpreting that statute, the
district court’s imposition of a 37-month prison term for Napper’s violation of his second
term of supervised release was lawful because it was less than five years, the maximum term
of supervised release for a Class A felony. See § 3583(b)(1) (providing that “the authorized
term of supervised release” for a Class A felony is not more than five years); Hampton, 633
F.3d at 338 (holding that § 3583(e)(3) does not require aggregation of revocation
imprisonment); United States v. Shabazz, 633 F.3d 342, 345 (5th Cir. 2011) (holding that
§ 3583(e)(3) “limits only the amount of revocation imprisonment the revoking court may
impose each time it revokes a defendant’s supervised release”).

7

No. 18-10442

In sum, Napper fails to show any error, plain or otherwise, committed
by the district court with respect to his claim that his 37-month revocation
sentence constitutes a breach of his plea agreement.
2. Substantive Reasonableness
Napper next asserts that his 37-month revocation sentence is
substantively unreasonable. He acknowledges that the district court properly
considered the sentencing factors of deterrence and protection of the public,
but he argues that his 37-month sentence is “plainly excessive” when
considered with the consecutive 240-month prison term the district court
imposed for the new drug offense. He further asserts that considering he will
be 53 years old on his ultimate release date, his risk of re-offending will be
significantly reduced.
A revocation sentence is “substantively unreasonable” where the
district court did not take into account a factor that should have received
significant weight, gave significant weight to an irrelevant or improper factor,
or made a clear error in judgment when balancing the sentencing factors.9 As
the Supreme Court has recently held, because Napper did not request a lower
revocation sentence or object to the sentence imposed at the revocation
hearing, his claim challenging the substantive reasonableness of his
revocation sentence is reviewed for plain error.10
As the Government contends, Napper’s arguments challenging his
revocation sentence amount to a claim that the district court did not take into
account a factor that should have received significant weight—his 240month sentence for his drug offense. We addressed and rejected a similar

9

United States v. Warren, 720 F.3d 321, 332 (5th Cir. 2013).

10

Holguin-Hernandez v. United States, 140 S. Ct. 762, 766–67 (2020).

8

No. 18-10442

argument in our decision in United States v. Daughenbaugh.11 In that case, the
district court imposed a 120-month prison sentence on the defendant’s new
offense and a consecutive 60-month revocation sentence. The defendant
argued that the sentences should have run concurrently and that the
consecutive 60-month revocation sentence was “greater than necessary” to
satisfy the statutory sentencing goals.12 He additionally argued that
considering his age, he would pose no danger to the community if he were
released from prison earlier.13
In rejecting the defendant’s arguments in Daughenbaugh, we noted
that “[a] sentence imposed on revocation of supervised release punishes a
breach of trust for violating the conditions of supervision” and that it
consequently is “separate” and “distinct from the sentence imposed on the
new offense.”14 We further noted that the revocation sentence was within
the range recommended by the policy statements of the Sentencing
Guidelines, that the district court had the discretion to order consecutive
sentences, and that the defendant’s conclusory assertion that his combined
sentences were “greater than necessary” to satisfy the statutory sentencing
goals was insufficient to rebut the presumption of reasonableness that
attached to his within-guidelines revocation sentence.15 Our reasoning is
equally applicable here.

11

793 F. App’x 237 (5th Cir. 2019). Although we are not bound by an unpublished
decision, see 5TH CIR. R. 47.5, we find the reasoning in Daughenbaugh persuasive and
adopt it here.
12

793 F. App’x at 240.

13

Id.

14

Id. (citations omitted).

15

Id. at 240–41 (citations omitted).

9

No. 18-10442

Napper’s 37-month revocation sentence was imposed to punish his
breach of trust for violating his conditions of supervision and was separate
and distinct from the sentence imposed for his guilty plea to conspiracy to
distribute and possession with intent to distribute 500 grams or more of
methamphetamine. His revocation sentence was within the recommended 30
to 37-month range of the policy statements of the Guidelines, the district
court had the discretion to order consecutive sentences, and Napper’s
conclusory assertion that his revocation sentence is “plainly excessive”
when considered with his 240-month sentence on his new drug offense is
insufficient to rebut the presumption that his within-guidelines revocation
sentence is reasonable.
Based on the foregoing, we conclude that Napper has failed to
demonstrate any error, plain or otherwise, regarding the substantive
reasonableness of his sentence.
3. Procedural Reasonableness
Napper argues that his 37-month revocation sentence is also
procedurally unreasonable. He contends that the district court’s stated
reasons, deterrence and protection of the public, for imposing his sentence
were “plainly insufficient.” Citing to numerous cases in which this court has
affirmed the district court’s sentencing decisions, Napper further asserts that
because the district court herein frequently relies on these identical reasons
to justify its imposition of sentences in very different cases, those reasons no
longer provide reassurance that the sentencing process was “reasoned.”
Because Napper failed to raise his objection in the district court, our
review is for plain error only.16 Under 18 U.S.C. § 3553(c), the district court,

16

Holguin-Hernandez, 140 S. Ct. at 766–67.

10

No. 18-10442

“at the time of sentencing, shall state in open court the reasons for its
imposition of the particular sentence.” As the Supreme Court has explained,
and Napper acknowledges, “when a judge decides simply to apply the
Guidelines to a particular case, doing so will not necessarily require lengthy
explanation.”17 Specifically, “[c]ircumstances may well make clear that the
judge rests his decision upon the Commission’s own reasoning that the
Guidelines sentence is a proper sentence . . . in the typical case, and that the
judge has found that the case before him is typical.”18 Unless a party “argues
that the Guidelines reflect an unsound judgment . . . or argues for departure,
the judge normally need say no more.”19
In this case, the district court’s statement of reasons for imposing a
37-month revocation sentence was brief but legally sufficient. After Napper
admitted to the allegations in the Government’s motion to revoke, and the
district court granted the motion, the court found “a Grade A violation, with
a Criminal History Category of III,” as called for by the policy statements of
the Guidelines. The district court then sentenced Napper to 37 months in
prison, which was within the 30 to 37-month imprisonment range of the
policy statements. The court stated it believed a prison term of 37 months
“addresse[d] the issues of adequate deterrence and protection of the public.”
Because the sentence imposed was within the advisory range of the
Guidelines policy statements for a revocation sentence, and Napper did not
argue that such a sentence was unsound or that a departure was warranted,
the district court’s stated reasons were legally sufficient, and its sentence
procedurally reasonable.

17

Rita v. United States, 551 U.S. 338, 356 (2007).

18

Id. at 357.

19

Id.

11

No. 18-10442

Napper points out that the district court herein frequently relies on
the identical reasons, deterrence and protection of the public, to justify its
imposition of sentences in very different cases, and Napper cites to a long list
of cases in which we have affirmed the district court’s use of these reasons in
those cases. Napper asserts that because those reasons are frequently used to
impose sentences in different cases, the reasons can no longer provide
reassurance that the district court’s sentencing process is a “reasoned
process.” We disagree. Deterrence and protection of the public are
specifically delineated by statute as appropriate factors to consider when
imposing a revocation sentence.20 Contrary to Napper’s contentions, they
are not “ill-fitting” in this case. Deterrence was an appropriate factor,
especially considering that Napper twice returned to a life of crime after
beginning supervised release. Furthermore, protection of the public was also
relevant in light of Napper’s return to drug distribution and violence during
both terms of supervised release.
In sum, Napper fails to demonstrate any error, plain or otherwise, as
to the procedural reasonableness of his sentence.
4. Timing of Revocation Hearing
Napper lastly argues that the district court failed to hold his revocation
hearing within a reasonable time as required by Federal Rule of Criminal
Procedure 32.1 and the Due Process Clause. He focuses exclusively on the
earlier of his supervised release violations—his December 2012 commission
of aggravated assault under Texas law. He asserts that his March 2018
revocation hearing was not held within a reasonable time of that violation

20

See §§ 3553(a)(2)(B)–(C); 3583(e).

12

No. 18-10442

because the hearing occurred five and a half years later.21 He asserts that even
though he was in state custody from December 2012 to September 2016 for
the aggravated assault conviction, his revocation hearing should have been
held earlier than March 2018 because the district court could have easily
requested his appearance in federal court for a revocation hearing.
Furthermore, Napper argues that the delay impeded his right to due process
because it undermined his ability to contest the violation and to proffer
mitigating evidence and that such a long delay should be considered
presumptively prejudicial.
Because Napper failed to object on these grounds in the district court,
our review again is for plain error only.22 Napper must show that (1) there
was an error or defect in the district court proceeding; (2) the error was clear
or obvious; and (3) the error affected his substantial rights.23 If he makes this
showing, we have the discretion to remedy the error, but should do so “only
if the error seriously affects the fairness, integrity or public reputation of
judicial proceedings.”24 This court will not ordinarily find clear or obvious
error when it has not previously addressed an issue.25

21

Napper acknowledges that, under this court’s precedent, Sixth Amendment
speedy trial rights are inapplicable in supervised release revocation hearings and that due
process rights to a speedy revocation hearing arise only when federal authorities take
custody of a defendant for violating supervised release. See Untied States v. Tippens, 39 F.3d
88, 89–90 (5th Cir. 1994). Therefore, any claim that the timing of his revocation hearing
violated the Sixth Amendment or his right to due process is foreclosed. However, Napper
wishes to preserve these issues for further review.
22

FED. R. CRIM. P. 52(b).

23

Puckett, 556 U.S. at 135.

24

Id. (internal quotation marks and citation omitted).

25

United States v. Evans, 587 F.3d 667, 671 (5th Cir. 2009).

13

No. 18-10442

Napper argues that the plain text of Rule 32.1 compelled an earlier
revocation hearing as to his December 2012 supervised release violation, the
aggravated assault. He relies on Rule 32.1(b)(2) which provides:
“Revocation Hearing. Unless waived by the person, the court must hold the
revocation hearing within a reasonable time in the district having
jurisdiction.” He acknowledges that under our precedent, supervised release
revokees have a Fifth Amendment due process right to a speedy revocation
hearing, but that the right generally arises only when federal authorities take
custody of the defendant for violating supervised release.26 He asserts that
the right to a revocation hearing within a reasonable time under Rule
32.1(b)(2), however, is not dependent on whether the defendant is in federal
custody or whether a federal warrant has been issued, and that the rule does
not “exempt[] defendants in custody for another offense from the
overarching standard of reasonableness.”
Napper relies on the advisory committee notes to Rule 32.1 which
require consideration of whether the defendant can be made readily available
for the revocation court and whether the defendant waived appearance at the
revocation hearing. He asserts that both of these factors weigh against the
delay in his case because he was in Texas state custody during the delay, and
the federal district court could have easily issued a habeas corpus writ to
obtain his presence at a revocation hearing. He further states that he never
waived appearance at a revocation hearing.
This court has not previously addressed whether the “reasonable
time” requirement of Rule 32.1(b)(2) is determined based on when the
supervised release violation was committed or when the defendant has been
taken into federal custody for the violation. We note that the Second Circuit

26

See Tippens, 39 F.3d at 89–90.

14

No. 18-10442

has interpreted “person” in Rule 32.1(b)(2) to mean “a person in custody
for violating a condition of supervised release.”27 The Third Circuit also has
held that the right to a timely revocation hearing under Rule 32.1(b)(2) “is
measured from the time [the defendant] was taken into custody pursuant to
the revocation arrest warrant.”28 Therefore, the reasonable time
requirement in Rule 32.1(b)(2) may be no different from constitutional
standards.29 As stated above, this court will not ordinarily find clear or
obvious error when it has not previously addressed an issue.30 Therefore,
Napper fails to demonstrate that the timing of his revocation hearing under
Rule 32.1 was plainly erroneous.31
Finally, Napper argues that the delay in his revocation hearing
violated his rights to due process because the delay undermined his ability to
contest the supervised release violation and offer mitigating evidence.
Napper is correct that this court has noted that “a delay in executing a
violator’s warrant may frustrate a probationer’s due process rights if the
delay undermines his ability to contest the issue of the violation or proffer
mitigating evidence.”32 This rule, however, is inapplicable here in light of the

27

United States v. Jetter, 577 F. App’x 5, 7 n.1 (2nd Cir. 2014); United States v.
Patterson, 135 F. App’x 469, 475 (2nd Cir. 2005).
28

United States v. Goode, 700 F. App’x 100, 103 (3rd Cir. 2017).

29

The Eighth Circuit, however, has held that the “reasonableness” requirement
of Rule 32.1 is different from the constitutional standards of reasonableness. See United
States v. Blunt, 680 F.2d 1216, 1219 (8th Cir. 1982).
30

Evans, 587 F.3d at 671.

31

As Napper acknowledges, this court has held that due process rights to a speedy
revocation hearing arise only when federal authorities take custody of a defendant for
violating supervised release, and he does not argue that his revocation hearing was not held
within a reasonable time under that standard.
32

Tippens, 39 F.3d at 90 (citation omitted).

15

No. 18-10442

fact that Napper pled guilty to the aggravated assault, and he pled true to the
Government’s motion that the offense constituted a violation of his
supervised release.
III. Conclusion
Based on the foregoing, the district court’s judgment imposing a 37month revocation sentence is AFFIRMED.

16

APPENDIX B

Case 1:04-cr-00041-C-BU Document 1789 Filed 03/30/18

Page 1 of 1 PageID 6260

